OIG Audit Report

United States Marshals Service Intergovernmental Service Agreement for Detention Services with the Silverdale Correctional Facility, Hamilton County, Tennessee
Office of the Inspector General



Executive Summary


The Office of the Inspector General (OIG),  Audit Division has audited costs incurred in relation to the Intergovernmental  Service Agreement (IGA) between the United States Marshals Service (USMS) and  the Hamilton County, Tennessee,  Silverdale Correctional Facility. Under the agreement, the Hamilton County  Silverdale Correctional Facility houses adult male and female detainees at a  jail day rate of $37.81. The Federal Bureau of Prisons (BOP) and the Department  of Homeland Security (DHS) also house detainees at the correctional facility  under the $37.81 rate for the IGA.1   Hamilton County has requested an increased  jail day rate of $38.81, which similarly will apply to the BOP and DHS.
Our audit objectives were to determine whether:  (1) information in the Cost Sheet for  Detention Services is accurate, complete, and supported by adequate  documentation; and (2) the requested daily rate is supported by adequate  documentation and is based on reasonable, allocable, and allowable costs in  accordance with applicable laws, regulations, guidelines, and terms and  conditions of the IGA.
For the period July 1, 2004, through June 30, 2005, the USMS, the BOP,  and the DHS paid or were billed a total of $1,373,046 to house federal  detainees. Details of the billing and payments are shown below. 

The USMS paid  Hamilton County $1,285,200 for fiscal year (FY) 2005 to house an average of  93.1 detainees per day.  The USMS also  paid Hamilton County $8,143 for the services of transportation guards and mileage  for transporting detainees. 
The BOP paid  Hamilton County $53,805 for FY 2005 to house an average of 3.9 detainees per  day. 
The DHS was  billed by Hamilton County $34,041 for FY 2005 to house an average of 2.5  detainees per day. 

The USMS entered into the agreement with  Hamilton County on April 1, 2003, for  a fixed per diem jail day rate of $37.81.   Hamilton County submitted an FY 2005 Cost Sheet for Detention Services requesting  a jail day rate of $38.81. Based on our audit of Hamilton County’s FY 2005  actual costs and actual daily population, we found the requested jail day rate  of $38.81 was overstated.  We determined  the audited jail day rate to be $38.35, primarily because of  $125,882 in unsupported and unallowable operational costs. The largest  exceptions pertain to unsupported personnel expense, unreported income, and  unallowable maintenance expense. 
Assuming the requested rate of $38.81 is  approved and used in the future, and the average annual jail days utilized by  the USMS remain constant along with recurring costs, the USMS would have funds  put to a better use of $15,631.   Similarly, the BOP would have funds put to a better use of $655 and the  DHS would have funds put to a better use of $420; however, we make no  recommendation regarding the use of the IGA by DHS.
Our  findings are described in detail in the Findings and Recommendations section of  this report.  Our audit scope and  methodology appear in Appendix II. 


 

Footnotes

or purposes of this report, the word  “detainee” is synonymous with the word inmate, offender, people incarcerated,  or prisoner.





 




Return to OIG Home Page